App. No. ______________
________________________________________
In the
Supreme Court of the United States
________________________________________
JEROME KUNKEL, SEANTE CARTER, as next friend and Guardian of AC, EC, MC, OC, NC,
SC, and RC, minors, CHRISTINA BELL, as next friend and Guardian of GB, CB, GB2, CB2,
and GB3, minors, MARIA KUNKEL, as next friend and Guardian of NK, CK, RK, SK, AK,
MK, and GK, minors, and DAVID KUNKEL, as next friend and Guardian of CK2, DK, VK, IK,
LK, and DK2, minors
Petitioners
v.
NORTHERN KENTUCKY INDEPENDENT HEALTH DISTRICT, ZACH RANEY, LYNNE
M. SADDLER, MD, and Unknown Defendants, 1-10
Respondents
______________________________________
ON APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE KENTUCKY COURT OF APPEALS
_____________________________________
PETITIONERS’ APPLICATION TO EXTEND TIME TO FILE A PETITION FOR A WRIT
OF CERTIORARI
_____________________________________
Robert A. Winter, Jr.
(counsel of record)
PO Box 175883
Fort Mitchell, KY 41017
(859) 250-3337

Counsel for Petitioners
October 25, 2019

Thomas Bruns
Bruns, Connell, Vollmer, Armstrong
4750 Ashwood Dr., Ste. 200
Cincinnati, OH 45241
Christopher Wiest
Chris Wiest, Attorney at Law, PLLC
25 Town Center Blvd, STE 104
Crestview Hills, KY 41017
(859) 486-6850

App. No. ______________
________________________________________
In the
Supreme Court of the United States
________________________________________
JEROME KUNKEL, SEANTE CARTER, as next friend and Guardian of AC, EC, MC, OC, NC,
SC, and RC, minors, CHRISTINA BELL, as next friend and Guardian of GB, CB, GB2, CB2,
and GB3, minors, MARIA KUNKEL, as next friend and Guardian of NK, CK, RK, SK, AK,
MK, and GK, minors, and DAVID KUNKEL, as next friend and Guardian of CK2, DK, VK, IK,
LK, and DK2, minors
Petitioners
v.
NORTHERN KENTUCKY INDEPENDENT HEALTH DISTRICT, ZACH RANEY, LYNNE
M. SADDLER, MD, and Unknown Defendants, 1-10
Respondents
______________________________________
PETITIONERS’ APPLICATION TO EXTEND TIME TO FILE A PETITION FOR A WRIT
OF CERTIORARI
_____________________________________
To the Honorable Sonia Sotomayor, as Circuit Justice for the United States Court of
Appeals for the Sixth Circuit:
Petitioners Jerome Kunkel, Seante Carter, as next friend and Guardian of AC, EC, MC,
OC, NC, SC, and RC, minors, Christina Bell, as next friend and Guardian of GB, CB, GB2,
CB2, and GB3, minors, Maria Kunkel, as next friend and Guardian of NK, CK, RK, SK, AK,
MK, and GK, minors, and David Kunkel, as next friend and Guardian of CK2, DK, VK, IK, LK,
and DK2, minors, respectfully request that the time to file a Petition for a Writ of Certiorari in
this matter be extended for forty days, to, and including, January 6, 2020. The Kentucky
Supreme Court denied relief and review on August 29, 2019. See App. A, infra. The Court of

1

Appeals issued its opinion on May 30, 2019. See App. B, infra. On June 26, 2019, the Court of
Appeals issued an order in which it affirmed the denial of injunctive relief in this matter. See
App. B, infra. On April 2, 2019, the Circuit Court entered its order. See App. C, infra. Absent
an extension of time, the Petition would therefore be due on November 27, 2019. Petitioners are
filing this Application at least ten days before that date. See S. Ct. R. 13.5. This Court would
have jurisdiction over the judgment under 28 U.S.C. § 1257(a).

Background
Petitioners are a former student, and parents and guardians of 25 other students who
attended the Assumption Academy, a private Catholic High School located outside of Cincinnati,
Ohio, in northern Kentucky. This dispute arose when the Northern Kentucky Independent
Health District (“NKIHD”) and its officials targeted a private Catholic School and its students in
what began as an extra-curricular activity ban following suspected cases of varicella (chicken
pox). Petitioners, along with the vast majority (over 80%) of the students and parents in the
private school they attend, refused to get vaccinated for chicken pox because the only available
vaccine is derived from aborted fetal tissue, which violates their religious beliefs.
In mid-February 2019, the Health Department banned the non-vaccinated or otherwise
immune (e.g. had contracted chicken pox before and received the vaccine) students from extracurricular activities, and, in mid-March, 2019, after threat of a lawsuit, and the same day the
lawsuit in the underlying matter was filed, the Health Department retaliated and then banned the
students from school (even though they are permitted, and actually attend, daily mass in the same
building).

2

The case has received significant national press1 and comes among a spate of other
newsworthy cases, including the targeting of the Hasidic Jewish Community in New York City
for the refusal to be vaccinated due to religious objections.2
Karen Kunkel, Jerome’s mother, and her husband, Bill, went to the Health Department
after they imposed an activities ban in mid-February, 2019, which prohibited non-vaccinated
students from participating in extracurricular activities.3 While there, she met with Zach Raney
and Caroline Swisshelm.4
Primarily, the Kunkels conveyed that Jerome was healthy, and was not infected with the
varicella virus (varicella, in common parlance, is the chickenpox).5 During that meeting, the
Kunkels expressed their opposition to the vaccine for chickenpox due to the fact it is derived
from aborted fetal cells, and, in response, Mr. Raney stated that “it was okay” under Vatican
guidance to receive the vaccine – the Kunkels expressed the fact that they have a markedly

1

https://www.nytimes.com/2019/03/18/us/unvaccinated-student-basketball-lawsuit.html (last
visited 10/21/2019); https://www.fox19.com/2019/03/15/catholic-student-not-vaccinatedchicken-pox-sues-nky-health-dept-claims-he-was-told-he-couldnt-play-basketball-amidoutbreak/ (last visited 10/21/2019); https://www.wcpo.com/news/local-news/boonecounty/walton/student-who-refuses-chickenpox-vaccine-says-hell-appeal-after-judge-upholdsban (last visited 10/21/2019); https://www.nbcnews.com/news/us-news/kentucky-teen-whosued-over-school-ban-refusing-chickenpox-vaccination-n1003271 (last visited 10/21/2019).
2

https://www.washingtonpost.com/national/health-science/new-york-city-vaccination-ordershines-spotlight-on-insular-jewish-community/2019/04/11/fd59b098-5bc3-11e9-a00e050dc7b82693_story.html (last visited 10/21/2019); https://www.jta.org/2019/06/07/unitedstates/heres-what-we-know-about-orthodox-vaccination-rates (last visited 10/21/2019);
https://www.jta.org/2019/06/11/united-states/nyc-closes-tenth-jewish-school-for-violatingvaccine-order (last visited 10/21/2019).
3

CD of Injunction Hearing at 2019-04-01_09.08.54.523.wmv, at 9:09:53 a.m.
Id.
5
Id. at 9:11:00.
4

3

different understanding of that guidance.6 The Kunkels’ understanding is that the guidance
perhaps makes it acceptable to receive a vaccine for rubella, but not chickenpox.7
The Kunkels expressed that Jerome had no symptoms of chickenpox – he was not
displaying a fever, blisters, or rashes.8 And, in the course of that conversation, Ms. Swisshelm
indicated that the Health Department could “shut the school down” and “kick any kids out,” but
“what would that accomplish?”9
Swisshelm’s statement was made in light of the fact that these students regularly interact,
even with the current school ban in place.10 The students (vaccinated and unvaccinated) all
attended a St. Joseph’s Feast Day Dinner and Raffle, where the church and its members prepared
the dinner.11 And the Church holds daily mass that all of the students (vaccinated and
unvaccinated – including the students who are banned from school and those who are not)
attend.12 The particular church has rejected certain Vatican II reforms, and, as such, at that daily
mass, these students (banned and unbanned) receive communion on the tongue – with the priest
physically inserting the host into congregants’ mouth, and, consequently, saliva is likely to be
transferred between congregants.13
Jerome testified that he has sincerely held religious beliefs in opposition to the receipt of
the chickenpox vaccine – it is derived from aborted fetal cells, and the receipt of the vaccine is
contrary to his religious beliefs.14 If he were in any way symptomatic, he would stay away from

6

Id. at 9:11:30.
Id. at 9:12:38.
8
Id. at 9:13:17.
9
Id. at 9:13:50.
10
Id. at 9:14:15.
11
Id.
12
Id. at 9:14:52.
13
Id. at 9:15:30.
14
Id. at 9:24:20.
7

4

school.15 In terms of the extracurricular ban, he missed the end of his basketball season, and he
is now missing his senior year of baseball due to the Health Department’s activities ban.16
Jerome likewise testified that he visited the Health Department to question the activities
ban.17 While there, Jerome noted his religious exemption to the vaccine, and, in response, Mr.
Raney from the Health Department asked if Jerome was aware of the Vatican position on
vaccines and indicated that the Vatican said it was okay.18
Mr. Kunkel then testified to his understanding of the Vatican position on vaccines, which
directly contradicted the religious dogma that Mr. Raney opined to: that the vaccines in question
did “not cease to pose ethical problems,” that Jerome should “oppose the culture of death,”
“stand up for life,” not engage in “passive cooperation with abortion,” and that vaccines derived
from aborted fetal cells could be used only where there is “significant risks to health,” which the
chicken pox did not qualify for.19
The Health Department stipulated, in a sidebar, to Mr. Kunkel’s sincerely held
religious beliefs concerning the chicken pox vaccine and his objections thereto.20
Mr. Kunkel likewise noted that since March 15, 2019, he has been and remains out of
school.21
Mr. Kunkel likewise testified that he attends daily mass, where he sees other kids,
including the children not banned from school, attends coffee and donuts after mass on Sundays,

15

Id. at 9:25:25.
Id. at 9:28:31.
17
Id. at 9:28:31.
18
Id. at 9:28:57.
19
Id. at 9:30:24.
20
CD of Hearing at 2019-04-01_09.31.52.486.wmv, at 9:32:00 a.m.
21
CD of Hearing at 2019-04-01_09.32.17.691.wmv, at 9:32:17 a.m.
16

5

and attends rosary and confessions weekly.22 Mr. Kunkel confirmed that these activities are well
attended with children and adults, and he seeks both vaccinated and unvaccinated children at
these events.23
Mr. Kunkel testified to the serious impact he has and continues to suffer from the actions
of the Health Department: namely effects on his grades and prospects for college.24 He further
confirmed that Assumption Academy is located in the church building itself, namely in the
basement of the church.25 And, finally, Mr. Kunkel testified he is suffering ongoing exclusion
from the baseball team due to the extracurricular ban.26
Testimony of Zach Raney, Health Department representative
Mr. Raney testified that he is the Epidemiology Manager for the Health Department.27
He is not a Medical Doctor, Nurse, Pharmacist, or Clinician and does not treat patients.28 He
indicated he had no awareness of K.R.S. 446.350, and therefore, that statute did not weigh in
whatsoever on the Health Department’s actions in this matter.29 He further confirmed that he
was aware that Assumption was a private Catholic High School and Church, but that neither he,
nor anyone at the Health Department had any understanding, until the hearing of this matter, that
the Church held daily mass in which the students (both banned and unbanned) interacted.30
He further confirmed that Ms. Dredger, the school’s registrar who was involved in
reporting the alleged cases of the chickenpox to the Health Department, never personally saw

22

Id. at 9:32:50 through 9:33:40.
Id. at 9:33:40-9:33-52.
24
Id. at 9:34:00-9:35:06.
25
Id. at 9:35:06-9:36:00.
26
Id. at 9:36:06.
27
CD of Hearing at 2019-04-01_09.32.17.691.wmv, at 9:39:01 a.m.
28
Id. at 9:39:57.
29
CD of Hearing at 2019-04-01_09.42.04.806.wmv, at 9:42:54 a.m.
30
Id. at 9:44:42.
23

6

any of the children with the alleged cases.31 And he understood that Dredger was not a nurse,
physician, or pharmacist and could not diagnose the cases.32
As of both February 6, 2019 and February 13, 2019, there were zero confirmed cases of
chicken pox, which is why the Health Department was asking parents to take their children to the
Doctors – because medical doctors in Kentucky had to conduct laboratory testing and report
those results by law to the Health Department.33 As it turns out, the Health Department never
received any laboratory testing of any of the alleged cases of chicken pox, throughout the entire
situation – a circumstance that continues to the present.34
Nevertheless, on February 21, 2019, the Health Department issued the first of its control
measures – with a single suspected diagnosis from a hospital, and with no laboratory
confirmations.35 The doctor’s note indicated merely that chicken pox was “suspected.”36 Thus,
when the Health Department cancelled extracurricular activities at the school, they indicated that
a “proper diagnosis” will help, because they did not know what they were dealing with.37
On February 26, 2019, Bill, Karen, and Jerome Kunkel met with the Health Department,
and specifically with Mr. Raney and Ms. Swisshelm, who reports to Mr. Raney.38 In that
conversation, Raney and Swisshelm admitted that all they had to base their actions on was the
hearsay statements from the school’s registrar.39 And they had no idea whether Jerome was

31

Id. at 9:45:50.
Id. at 9:46:10.
33
Id. at 9:47:33.
34
Id. at 9:47:40-47.
35
Id. at 9:48:10.
36
Id. at 9:49:19-40.
37
Id. at 9:50:00-9:50:55.
38
Id. at 9:51:45; The testimony confirming Swisshelm reported to Raney is contained at CD of
Hearing at 2019-04-01_09.32.17.691.wmv, at 9:39:08 a.m.
39
CD of Hearing at 2019-04-01_09.42.04.806.wmv, at 9:51:45 a.m. to 9:53:10 a.m.
32

7

sick.40 Furthermore, they confirmed the Kunkel’s expressed a religious objection to any vaccine
– which the Health Department wanted them to get – because the vaccine is derived from aborted
fetal tissue.41 In fact, Raney and Swisshelm acknowledged that they did not even know if
anyone at the school currently had the chicken pox, since the doctor’s note was from a week or
two before.42
When questioned by Mr. Kunkel about the necessity of the ban, Raney confirmed that
“his opinion” as to the “outbreak” was going to control.43 And, as to the necessity of their
actions, Raney confirmed that what the Health Department had done was merely “an abundance
of caution.”44 When pressed further, Mr. Raney confirmed that Jerome had the right not to
be vaccinated due to his religious objections, but, because he exercised that right, he (and
the other students) were being punished by the Defendants.45
And, the Kunkel’s recorded Ms. Swisshelm confirming Karen Kunkel’s prior
testimony that, in fact, while the Health Department could shut the school down, it would
accomplish nothing because the students interacted with each other outside of school.46
Raney indicated he did not recall whether or not he told the Kunkels that the Vatican
encouraged them to get vaccinated.47
And then the incredible happened: Mr. Raney confirmed for us that the activities ban did
nothing other than mete out punishment to a religious group that Mr. Raney disagreed with: he
confirmed that the ban did not (i) prevent these same students from sharing food or beverages at
40

Id. at 9:53:10 a.m. – 9:53:19 a.m.
Id. at 9:54:00-9:55:00 a.m.
42
Id.
43
Id. at 9:56:20-9:57:08.
44
Id. at 9:57:37.
45
Id. at 9:57:45-9:59:00 a.m.
46
Id. at 9:59:17-10:00:05 a.m.
47
Id. at 10:00:05 a.m. to 10:01:13 a.m.
41

8

a local restaurant; (ii) prevent these same students from attending local events, or even church
events, weekly; (iii) prevent these same students from receiving communion on the tongue; (iv)
prevent these same students from attending church dinners; (v) prevent these same students from
going over to friends house who were symptomatic with the chicken pox; or even (vi) prevent
these same students from going to an after school job at a restaurant and preparing food.48
Not surprisingly, the Kunkels retained counsel after this meeting, and, on March 7, 2019,
Raney, Swisshelm, and others received an email communication from their counsel threatening a
lawsuit if the extracurricular ban was not rescinded.49 And, on March 14, 2019, the same day
this lawsuit was filed, the Health Department retaliated, by instating a ban from the students
attending school.50 They did so, even though the Health Department previously acknowledged,
through Swisshelm, that such a ban would be pointless.51
Further demonstrating the targeting and absurdity of the Health Department’s actions,
Raney confirmed that at no time in the last four years has the Health Department ever placed a
similar ban on any public schools for any disease.52 And, even though Influenza causes
approximately 80,000 deaths per year in the United States (compared to approximately 100
deaths per year prior to 1995, and even less today from chicken pox), the Health Department has
never issued a similar ban for the flu on any kids or schools.53
Raney similarly acknowledged, when it came to the school ban, that it did not (i) prevent
these same students from sharing food or beverages at a local restaurant; (ii) prevent these same
students from attending local events, or even church events, weekly; (iii) prevent these same
48

Id. at 10:01:13-10:02:30 a.m.
Id. at 10:02:13 a.m.
50
CD of Hearing at 2019-04-01_10.05.56.851.wmv, at 10:06:00 a.m. to 10:06:50 a.m.
51
Id. at 10:08:12 a.m.
52
Id. at 10:08:30 a.m.
53
Id. at 10:09:24 a.m.; See, also, https://www.cdc.gov/flu/about/burden/2017-2018.htm
49

9

students from receiving communion on the tongue; (iv) prevent these same students from
attending church dinners; (v) prevent these same students from getting together for coffee and
donuts after church; (vi) prevent these same students from going over to friends house who were
symptomatic with the chicken pox; or even (vii) prevent these same students from going to an
after school job at a restaurant and preparing food.54
Raney again acknowledged that the targets of these bans were a church and student
population, 82% of which had executed a religious exemption form to this particular vaccine,
and the Health Department knew as much when they took their actions.55
Incredibly, in so doing, the Health Department failed to follow Centers for Disease
Control Guidance for Varicella/Chickenpox, by failing to first confirm an outbreak with
laboratory testing, or appropriately surveying the affected community.56
Raney acknowledged that it was “impossible” to know whether the Health Department’s
measures were effective or not in preventing the spread of chickenpox.57 Nevertheless, there
were additional cases after March 14, 2019.58 And, Raney acknowledged that the Health
Department could have chosen less restrictive means, namely notification to the Church and
School of the suspected chicken pox, and a request for at-risk populations to stay away, but did
not do so.59
The Courts below held that the targeting was acceptable, largely reasoning that public
health concerns justified the restrictions.

54

Id. at 10:09:24 a.m.-10:10:25 a.m.
Id. at 10:10:32 a.m.-10:11:37 a.m.
56
Id. at 10:11:53 a.m. - 10:13:40 a.m.
57
Id. at 10:14:16 a.m.
58
Id.
59
Id. at 10:15:58.
55

10

REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a Petition for a Writ of Certiorari should be extended for forty days for
these reasons:
1.

Additional time is warranted to allow preparation of a Petition because seeking

this Court’s review in any case is a serious decision, and the implications of this case are
important, warranting careful preparation of the petition.
2.

This case presents extraordinarily important issues warranting a carefully

prepared Petition. At stake are serious First Amendment religious freedom issues that continue
to percolate in the lower courts and across the country. Prior jurisprudence of this Court is
implicated. See, e.g. Church of the Lukumi Babalu Aye v. City of Hialeah, 508 U.S. 520 (1993);
Wisconsin v. Yoder, 406 U.S. 205 (1972); Sherbert v. Verner, 310 U.S. 296 (1963); and
Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights Comm'n, 138 S. Ct. 1719 (2018).
3.

In addition to the religious targeting issues, this case also presents a clear case of

retaliation for protected First Amendment speech (e.g. the threat of the lawsuit that was then
followed by the school ban). Perry v. Sindermann, 408 U.S. 593, 597 (1972); Thaddeus-X v.
Blatter, 175 F.3d 378 (6th Cir. 1999); Lozman v. City of Riviera Beach, 138 S. Ct. 1945 (2018).
4.

Equal protection is likewise implicated, given the differential treatment of the

students here and the fundamental rights for parents to make educational decisions. Kiser v.
Kamdar, 831 F.3d 784 (6th Cir. 2016); Washington v. Glucksberg, 521 U.S. 702 (1997), citing
Meyer v. Nebraska, 262 U.S. 390 (1923).
5.

And this case raises substantial questions under the Due Process Clauses of the

U.S. Constitution. Daniels v. Williams, 474 U.S. 327 (1986); Seal v. Morgan, 229 F.3d 567 (6th

11

Cir. 2000); Morrison v. Warren, 375 F.3d 468 (6th Cir. 2004); Lewellen v. Metropolitan Gov't,
34 F.3d 345 (6th Cir. 1994); Jacobson v. Massachusetts, 197 U.S. 11 (1905).
6.

There is, at a minimum, some prospect that this Court will grant certiorari, and a

similar prospect of reversal.
7.

Several obligations of the undersigned Counsel have led to them not being in a

position to complete the certiorari petition within the time otherwise allotted. First, Counsel
were Counsel for Petitioners in Schickel, et. al. v. Troutman, 19-458 (cert pending) involving a
First Amendment certiorari petition that was filed October 3, 2019 and involved an exceptional
amount of time to prepare. In addition, while preparing the Schickel petition, Counsel have been
and currently are involved in an expedited elections case in the U.S. District Court for the
Eastern District of Kentucky: Sweeney, et. al. v. Crigler, et. al., 2:19-cv-00046. The Sweeney
case has involved the taking or defending of ten depositions (including expert depositions),
including an expert witness in California, all of which have occurred since September 6, 2019,
and that matter is now subject to an expedited briefing schedule so that the court is in a position
to render a decision before and so as to not interfere with, the 2020 election cycle. In addition to
Sweeney and Schickel, the undersigned Counsel have an exceptionally busy case load between
them, including appellate deadlines in several cases and two previously scheduled trials and
hearings between now and the date the petition is due.
8.

The current deadline also immediately follows the Thanksgiving holiday, and the

undersigned considered and attempted to seek only a 30-day extension, but that would place the
deadline immediately following the Christmas holiday and the end of the year. The additional 10
days, to 40 days, places the deadline in early January, after that holiday.

12

9.

Finally, there is no prejudice that would arise from the extension, and an

additional forty days is warranted.
CONCLUSION
For the foregoing reasons, the time to file a Petition for a Writ of Certiorari in this matter
should be extended forty days to, and including, January 6, 2020.
Respectfully submitted,

Robert A. Winter, Jr.
(counsel of record)
PO Box 175883
Fort Mitchell, KY 41017
(859) 250-3337
Christopher D. Wiest
Chris Wiest, AAL PLLC
25 Town Center Blvd, Suite 104
Crestview Hills, KY 41017
(859) 486-6850
Thomas Bruns
Bruns, Connell, Vollmer, Armstrong
4750 Ashwood Dr., Suite 200
Cincinnati, OH 45241
Counsel for Petitioners
October 25, 2019

CERTIFICATE OF SERVICE
I certify that I have served a copy of the foregoing upon Counsel for the
Defendants/Respondents, this 25th day of October 2019, by ordinary U.S. mail.

/s/Robert A. Winter, Jr.
Robert A. Winter, Jr.

13

